OIG Audit Report GR-60-07-007

Use of Equitable Sharing Revenues by the Colorado State Patrol, Lakewood, Colorado

Audit Report GR-60-07-007


June 2007
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues received by the Colorado State Patrol (CSP), a division of the Colorado Department of Public Safety. Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1   During the period of July 1, 2004, through June 30, 2006, CSP was awarded DOJ equitable sharing revenues totaling $1,010,707 and property valued at $10,737 to support law enforcement operations. 
 We reviewed the CSP’s compliance with six essential equitable sharing guidelines and identified the following issues related to non-compliance. 

 A new Federal Sharing Agreement was not submitted when an administration change occurred. 
 The Annual Certification Reports submitted for FYs 2005 and 2006 contained inaccurate information, were not complete, and were not submitted on a timely basis. 
 Equitable sharing property was not used solely for law enforcement purposes. 
 CSP did not adequately track expenditures paid with equitable sharing revenues. 
 We identified $135,570 in questioned costs related to expenditures of equitable sharing revenues for unallowable purposes. 
 The “Specific Intended Law Enforcement Use(s)” listed on the Applications for Transfer of Federally Forfeited Property (DAG-71s) did not correspond to the actual uses of equitable sharing funds. 

 The results of our work are discussed in greater detail in the Findings and Recommendations section of this report. The audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with CSP officials and have included their comments in the report, as applicable. In addition, we provided the CSP and the DOJ, Criminal Division, with a draft copy of our audit report and requested a formal response. The CSP provided a response to the draft report, which is shown in our report at Appendix IV. The Criminal Division did not provide a response to the draft report. 



Footnotes

The DOJ asset forfeiture program has three primary goals: (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through equitable sharing of assets recovered through this program; and (3) as a by-product, to produce revenues to enhance forfeitures and strengthen law enforcement.








Return to OIG Home Page